                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              ADDITIONAL INFORMATION NEEDED TO
                                              MEASURE THE EFFECTIVENESS AND RETURN
                                              ON INVESTMENT OF TRAINING SERVICES
                                              FUNDED UNDER THE WIA ADULT AND
                                              DISLOCATED WORKER PROGRAMS




                                                                 Date Issued:   September 30, 2011
                                                              Report Number:      03-11-003-03-390
U.S. Department of Labor                                      September 2011
Office of Inspector General
                                                              ADDITIONAL INFORMATION NEEDED TO MEASURE
Office of Audit
                                                              THE EFFECTIVENESS AND RETURN ON INVESTMENT
                                                              OF TRAINING SERVICES FUNDED UNDER THE WIA

BRIEFLY…                                                      ADULT AND DISLOCATED WORKER PROGRAMS

Highlights of Report Number 03-11-003-03-390, issued          WHAT OIG FOUND
to the Assistant Secretary for Employment and Training.
                                                              WIA limits ETA’s ability to include the results of training
                                                              services in its WIA performance accountability system.
WHY READ THE REPORT                                           Although the system ETA developed complied with
The Office of Inspector General (OIG) conducted a             WIA, it did not provide sufficient information on
performance audit of training services provided under         performance results and the cost of training services for
the Workforce Investment Act (WIA) Adult and                  which ETA paid. For the 20 SWAs in our audit universe,
Dislocated Worker programs. The U.S. Department of            we estimated that ETA spent about $307 million on
Labor’s (DOL) Employment and Training Administration          training services to 103,340 exiters during the period
(ETA) awards more than $2 billion annually in formula         April 2008 to March 2009.
grants to State Workforce Agencies (SWA) to operate
the WIA Adult and Dislocated Worker programs.                 Because ETA had limited information on the outcomes
Training Services is one of the three tiers, or levels, of    and cost of training services, we analyzed a sample of
services provided under WIA. However, the amount of           362 Adult and Dislocated Worker program exiters who
funding spent on each of the service tiers is not             received training services. Our analysis showed that in
available because fund allocation is left to the discretion   almost every case the exiters received training related
of the SWAs, and ETA does not collect this information.       to a demand occupation and 86 percent completed their
WIA established a comprehensive performance                   training. Employment outcomes for the sampled exiters
accountability system to assess the effectiveness of          showed 85 percent obtained employment after training.
SWAs in achieving continuous improvement of                   Of those who obtained employment, 82 percent were
workforce investment activities in order to optimize the      still employed in the second quarter after exiting.
return on investment of federal funds. The core
indicators of performance are entry into unsubsidized         Our analysis also showed that 37 percent of the
employment; retention in unsubsidized employment 6            sampled exiters either did not obtain employment or
months after entry into the employment; and earnings          their employment was unrelated to the training they
received in unsubsidized employment 6 months after            received. Specifically, almost 13 percent did not obtain
entry into the employment.                                    employment, and for those who did, almost 24 percent
                                                              were in jobs not related to their training. Additionally, for
                                                              another 10 percent of exiters, the SWAs could not
                                                              provide sufficient evidence to demonstrate whether job
WHY OIG CONDUCTED THE AUDIT
                                                              placement was training related. We estimated that
                                                              $124 million was spent on training participants who did
The audit objectives were to answer the following
                                                              not obtain training-related employment, or there was
questions:
                                                              insufficient information to make that determination.
    1. Was ETA’s comprehensive performance
    accountability system able to assess the                  WHAT OIG RECOMMENDED
    effectiveness of training services provided under
    the WIA Adult and Dislocated Worker programs?             The OIG recommended that the ETA Assistant
                                                              Secretary pursue legislative authority to develop
    2. What were the results of the training services         performance measures for training outcomes, and
    provided under these programs, and were the               require SWAs to report training costs at the participant
    training services linked to demand occupations?           level; and to exercise oversight over SWAs to ensure
                                                              they develop practices to increase the percentage of
                                                              exiters who find training-related employment.
READ THE FULL REPORT                                          ETA did not believe the report put the findings in the
To view the report, including the scope, methodology,         proper perspective and did not agree with the
and full agency response, go to:                              recommendations to pursue legislative authority on
http://www.oig.dol.gov/public/reports/oa/2011/03-11-          performance measures for training outcomes and to
003-03-390.pdf.                                               collect training costs and funding sources.
U.S. Department of Labor – Office of Inspector General




     WIA Adult & Dislocated Worker Training Services
                        Report No. 03-11-003-03-390
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief............................................................................................................... 2

Objective 1 — Was ETA's performance accountability system able to assess the
              effectiveness of training services provided under the WIA Adult
              and Dislocated Worker programs?..................................................... 5
         ETA did not have sufficient information to assess the performance results
         of training services for which it paid more than an estimated $307 million. .......... 5

         Finding 1 — ETA's performance accountability system was not able to
                    assess the effectiveness of training services provided under
                    the WIA Adult and Dislocated Worker programs............................... 5

Objective 2 — What were the results of the training services provided under the
              WIA Adult and Dislocated Worker programs, and were the training
              services linked to demand occupations? ........................................ 10
         An estimated $124 million was spent on training Adult and Dislocated
         Worker exiters who did not obtain training-related employment or there
         was insufficient information to make the determination. ..................................... 10

         Finding 2 — More that 80 percent of the exiters who received training
                    services under the Adult and Dislocated Worker program
                    obtained employment but not always related to the training
                    they received. ................................................................................. 10

Recommendations ...................................................................................................... 14

Exhibit
         Exhibit Sample Results and Projections ............................................................. 17

Appendices
         Appendix A Background ..................................................................................... 21
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 25
         Appendix C Acronyms and Abbreviations .......................................................... 29
         Appendix D ETA Response to Draft Report ....................................................... 31
         Appendix E Acknowledgements ......................................................................... 37




                                                                    WIA Adult & Dislocated Worker Training Services
                                                                                       Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                  WIA Adult & Dislocated Worker Training Services
                                     Report No. 03-11-003-03-390
                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2011

                         Assistant Inspector General’s Report



Jane Oates
Assistant Secretary for Employment and Training
Employment and Training Administration
200 Constitution Avenue, N.W
Washington, D.C. 20210


The U.S. Department of Labor’s (DOL) Employment and Training Administration (ETA)
awards more than $2 billion annually in formula grants to State Workforce Agencies
(SWA) to operate the Workforce Investment Act (WIA) Adult and Dislocated Worker
programs. The Adult and Dislocated Worker programs provide for three tiers, or levels,
of services — core, intensive, and training. The amount of funding spent on each of the
service tiers is not available because allocation of the funds between the service tiers is
left to the discretion of the SWAs and ETA does not collect the information. Within the
SWAs, Local Workforce Agencies (LWA) are responsible for providing these services to
eligible participants. In order to receive training services, participants must be unable to
obtain employment through intensive services and must require assistance beyond
what is available through other grant programs. WIA requires training services to be
directly linked to occupations that are in demand in the local area or in another area
where the participant is willing to relocate, although exceptions are allowed in some
cases. WIA, Section 136, established a comprehensive performance accountability
system to assess the effectiveness of SWAs in achieving continuous improvement of
workforce investment activities in order to optimize the return on investment of federal
funds. WIA specified the core indicators of performance as being entry into
unsubsidized employment; retention in unsubsidized employment 6 months after entry
into the employment; and earnings received in unsubsidized employment 6 months after
entry into the employment.

The audit objectives were to answer the following questions:

   1. Was ETA’s comprehensive performance accountability system able to assess
      the effectiveness of training services provided under the WIA Adult and
      Dislocated Worker programs?

   2. What were the results of the training services provided under these programs,
      and were the training services linked to demand occupations?


                                                   WIA Adult & Dislocated Worker Training Services
                                              1                       Report No. 03-11-003-03-390
                                                         U.S. Department of Labor – Office of Inspector General



The audit focused on training services provided and outcomes achieved under the WIA
Adult and Dislocated Worker programs for 103,430 exiters from 20 SWAs 1 between
April 1, 2008, and March 31, 2009. This was the most current period available for review
because outcome data is not available until 12-15 months after participants exit the
program. The audit covered processes in place at the time of our fieldwork from January
through July 2011. We reviewed case file documentation for a statistical sample of 362
exiters from 6 SWAs to determine if the training provided was linked to a demand
occupation, if the exiter completed the training, if the exiter found employment and if it
was related to the training received, and if the exiter retained employment. The audit
also included a determination of the extent to which SWAs and LWAs identified demand
occupations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

WIA limits ETA’s ability to include the results of training services in its WIA performance
accountability system. The WIA performance accountability system that ETA developed
complied with WIA, Section 136 in that it included performance measures for reporting
whether exiters found and retained employment. However, it did not provide sufficient
information on the performance results of training services for which ETA paid. WIA
does not allow ETA to establish any new performance measures apart from the core
employment indicators required in WIA, Section 136. Therefore, ETA could not use data
it collected on training-related employment through its Workforce Investment Act
Standard Record Data (WIASRD) for performance accountability purposes. Additionally,
our review of the training service data in WIASRD found it was incomplete and
unreliable. Moreover, ETA did not collect information on training costs and was unable
to identify the funding source(s) of training services, which could be paid for by sources
other than WIA. ETA claimed that WIA does not allow the agency to collect information
on the cost of training activities, but we believe WIA does not prevent ETA from
requesting SWAs to report these costs at the participant level.

As a result, there is limited information available at the national level about the results
and cost of the training services provided by the Adult and Dislocated Worker programs.
ETA is unable to report if the training services provided by these programs are
achieving intended results and at what cost. For the 20 SWAs in our audit universe, we
estimated that ETA spent about $307 million on training services during the period
April 2008 to March 2009.

  Exiters are participants who enrolled, received services, and exited from a WIA program. The 20 SWAs were
1

responsible for 79 percent of the exiters who received training services nationwide within the audit time frame.


                                                               WIA Adult & Dislocated Worker Training Services
                                                           2                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General



Because ETA had limited information on the outcomes and cost of training services, we
performed an analysis of the 362 sampled Adult and Dislocated Worker program exiters
who received training services. Our analysis of the sampled exiters showed that in
almost every case (98 percent), they received training related to a demand occupation.
Although ETA did not have a measure or goal for the rate at which training was
completed, we found that 86 percent of the sampled exiters completed their training,
and their employment outcomes indicated that 85 percent obtained employment after
training. Of those who obtained employment, 82 percent were still employed in the
second quarter after exiting the programs.

However, our analysis also showed that 37 percent of the sampled exiters either did not
obtain employment or their employment was unrelated to the training they received.
Specifically, almost 13 percent of the sampled exiters did not obtain employment, and
for those who did, almost 24 percent were in jobs that were not related to the training
they received. Additionally, for another 10 percent the SWAs could not provide sufficient
evidence to demonstrate whether the job placement was training related. Projecting
these results to our audit population of 103,340 exiters, we estimate that $124 million
was spent on training participants who did not obtain training-related employment or
there was insufficient information to make that determination.

These results demonstrate the importance of having performance and cost information
to assess the effectiveness of training services. ETA is not in position to report to
stakeholders the outcomes and cost of training services and areas that could be
improved. Also, SWAs and LWAs lacked goals for placing exiters in training-related
employment. Information on training services is especially important because recent
trends show the annual amount of funds allotted to SWAs for the WIA Adult and
Dislocated Worker programs is decreasing while the number of participants is
increasing. Usable and reliable information on training costs and training-related
employment would assist ETA and the SWAs in determining how to best allocate
decreasing WIA funds to those services that will achieve the desired results of enabling
participants to pursue viable career paths leading to self-sufficiency. Such information
would also improve accountability and transparency over WIA funds invested in training
participants for demand occupations.

We recommend that the ETA Assistant Secretary pursue legislative authority in the WIA
reauthorization to develop performance measures for training outcomes; require SWAs
to report training costs and funding sources at the participant level so stakeholders have
adequate information to make return-on-investment decisions for WIA services; develop
and provide guidance to SWAs and LWAs regarding the best methodology for collecting
and reporting data for training-related employment; and exercise oversight over SWAs
to ensure they develop and/or identify best practices to increase the percentage of
exiters who find employment related to the training they receive.




                                                WIA Adult & Dislocated Worker Training Services
                                            3                      Report No. 03-11-003-03-390
                                            U.S. Department of Labor – Office of Inspector General



ETA RESPONSE

In response to the draft report, ETA disagreed that “there is limited information available
at the national level about the results and cost of the training services provided by the
Adult and Dislocated Worker programs.” ETA said it currently collects data that allows it
to calculate outcomes for each participant who receives training; and OIG’s suggestion
that the data is “limited” is neither fair nor accurate. ETA also believed the report tended
to overstate deficiencies and understate positive findings.

ETA did not agree with the recommendation to pursue legislative authority in WIA
reauthorization to develop performance measures for training outcomes because it may
exert a diluting effect on accountability. ETA stated that it measures the system on its
ability to improve outcomes for all customers regardless of the services provided.

ETA also disagreed with the recommendation to require SWAs to report training costs
and funding sources in WIASRD because its opinion is that WIA, Section 185(g),
prohibits it from doing so. ETA also stated that the report does not acknowledge the
costs necessary to modify local, state, and federal information systems, train staff, and
use staff time to comply with the requirement.

ETA agreed with the recommendations to provide guidance to the SWAs and LWAs
regarding the collection and reporting of training-related employment data and exercise
oversight to ensure SWAs develop and/or identify best practices for increasing the
percentage of exiters who find training-related employment.

ETA’s response is included in its entirety as Appendix D

OIG CONCLUSION

ETA’s response did not result in any changes to the report. While ETA does collect the
additional information cited in its response, we believe that obtaining accurate and
reliable data on training-related employment, the funding source of training, and the cost
of training are key data elements needed in assessing the programs’ effectiveness and
return on investment. The data currently collected on training-related employment is
incomplete and unreliable and, as described by ETA, should only be used with “extreme
care.” Additionally, this data does not differentiate training funded under the WIA Adult
and Dislocated Worker programs from training funded by other sources. As a result of
these data limitations, ETA cannot currently calculate outcomes for participants who
received training paid with WIA funds; and therefore, it has no way to assess whether
those training funds are being spent in an effective manner. As such, the data is
“limited” in its usefulness in determining the effectiveness of training paid with WIA Adult
and Dislocated Worker program funds.

Elevating training-related employment results to a performance measure would increase
accountability over the effectiveness of training services paid under the WIA Adult and
Dislocated Worker programs and increase the transparency of ETA’s reporting to

                                                 WIA Adult & Dislocated Worker Training Services
                                             4                      Report No. 03-11-003-03-390
                                            U.S. Department of Labor – Office of Inspector General



stakeholders. Although ETA’s response downplayed the importance of exiters obtaining
training-related employment, WIA, Section 136, requires not only that this information
be reported by the SWAs but that the outcomes be compared to those participants who
did not receive training services. The problems we found with the completeness and
reliability of outcome data indicated that its importance needs to be emphasized.

WIA does not prohibit ETA from collecting cost information at the participant level and
WIA, Section 185(g), applies to the reporting of costs on the Federal Financial Report.
ETA’s response did not address how it is complying with WIA, Section 185(d), which
specifically requires it to collect “the specified costs of the programs and activities” in
which participants are enrolled. Concerning the cost necessary to require the reporting
of training costs, we found the training costs at the participant level were readily
available at the LWAs we visited.


RESULTS AND FINDINGS

Objective 1 — Was ETA's performance accountability system able to assess the
              effectiveness of training services provided under the WIA Adult
              and Dislocated Worker programs?

       ETA did not have sufficient information to assess the performance results of
       training services for which it paid more than an estimated $307 million.

Finding 1 — ETA's performance accountability system was not able to assess the
            effectiveness of training services provided under the WIA Adult and
            Dislocated Worker programs.

WIA limits ETA’s ability to include the results of training services in the WIA
performance accountability system. The WIA performance accountability system that
ETA developed complied with WIA, Section 136 in that it included performance
measures for reporting whether exiters found and retained employment. However, it did
not provide sufficient information on the performance results of training services for
which ETA paid. WIA does not allow ETA to establish any new performance measures
apart from the core employment indicators required in WIA, Section 136. Therefore,
ETA could not use data it collected on training-related employment through its
Workforce Investment Act Standard Record Data (WIASRD) for performance
accountability purposes. Additionally, our review of the training service data in WIASRD
found it was incomplete and unreliable. Moreover, ETA did not collect information on
training costs and was unable to identify the funding source(s) of training services,
which could be paid for by sources other than WIA. ETA claimed that WIA does not
allow the agency to collect information on the cost of training activities. However, we
believe WIA does not prevent ETA from requesting SWAs to report these costs at the
participant level.




                                                 WIA Adult & Dislocated Worker Training Services
                                             5                      Report No. 03-11-003-03-390
                                                 U.S. Department of Labor – Office of Inspector General



As a result, there is limited information available at the national level about the results
and costs of training services. Consequently, ETA is unable to report if the training
services provided by these programs are achieving intended results or whether
taxpayers are receiving a return on investment for the estimated $307 million
investment spent to train participants in demand occupations during the audit period.

ETA did not have a specific performance measure to report whether exiters got
jobs related to the training services they received.

While ETA did establish performance measures for employment outcomes of WIA Adult
and Dislocated Worker exiters, these measures only reported the overall outcomes for
WIA exiters regardless of the type of services they received. Therefore, these measures
were not sufficient to gauge the effectiveness of the funds ETA spent on training
services.

WIA, Section 136 establishes a comprehensive performance accountability system to
assess the effectiveness of SWAs in achieving continuous improvement of workforce
investment activities in order to optimize the return on investment of federal funds. WIA,
Section 136(b)(2)(A)(1), specifies the core indicators of performance as being entry into
unsubsidized employment; retention in unsubsidized employment 6 months after entry
into the employment; earnings received in unsubsidized employment 6 months after
entry into the employment; and attainment of a recognized credential.

After the enactment of WIA, ETA implemented the following performance measures for
its job training and employment programs:

          •   Entered Employment
          •   Employment Retention
          •   Average Earnings

DOL reported the results of the above measures in its annual Performance and
Accountability Report (PAR). 2

WIA, Section 136(d)(2), describes additional information that the SWAs are required to
include in their annual report to ETA, including entry by participants who have
completed training services under the WIA Adult or Dislocated Worker programs into
unsubsidized employment related to the training received. However, only one of the six
SWAs in our sample reported information on training-related employment in its WIA
Annual Report. Employment-related data from the 53 SWAs’ WIA Annual Report
appeared in a summary Excel spreadsheet on ETA’s Performance and Results website.
This spreadsheet consisted of 17 worksheets, lacked explanatory notes or descriptions
of the data, and was difficult to locate on ETA’s website. Using the SWAs’ WIA Annual
Reports for reporting training-related employment was not only inconsistent but it lacked
accountability and transparency. The lack of a performance measure relieved ETA and

2
    Commencing in FY 2010, DOL reported performance results in its annual PAR.

                                                       WIA Adult & Dislocated Worker Training Services
                                                   6                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General



the SWAs of accountability over the effectiveness of training services paid for under the
WIA Adult and Dislocated Worker programs. Additionally, performance results on a
national level were not transparently reported in an annual performance report, which
could be easily accessed by all interested parties but were instead buried in a confusing
Excel spreadsheet that was not easily located.

Since WIA does not allow ETA to implement performance measures beyond the core
indicators specified in WIA, Section 136(b)(2)(A)(1), ETA would need to seek legislative
authority to add performance measures that will assess the effectiveness of the SWAs’
use of WIA funds for training services. Establishing a performance measure for
training-related employment would assist ETA, SWAs, and LWAs in their
decision-making process regarding the continuous improvement of workforce
investment activities in order to optimize the return on investment of federal funds spent
on training.

Data on training-related employment was incomplete and unreliable.

Although ETA did not use training-related employment data for performance
accountability purposes, it did collect such data in WIASRD. However, we found the
data to be incomplete and unreliable. ETA developed WIASRD to establish a
standardized set of data elements, definitions, and specifications that could be used to
describe the characteristics, activities, and outcomes of individuals served by WIA
programs. The purpose of WIASRD was to facilitate the collection and reporting of valid,
consistent, and complete information on an individual in order to support the overall
management, evaluation, and continuous improvement of the programs at the local,
state, and federal levels. ETA officials stated that the program performance results from
WIASRD can be shared with consumers, taxpayers, Congress and others with an
interest in the WIA programs.

ETA instructed the SWAs to report in WIASRD whether or not exiters entered
employment in which they used a substantial portion of the skills taught in the training
they received (data element 604, Entered Training-Related Employment). While some
data elements in WIASRD were considered optional, ETA required that data element
604 be completed for all training exiters in the Adult and Dislocated Worker programs.

Our analysis of data element 604 in the WIASRD file used for the audit found 5 of the
53 SWAs did not report anything for this element. ETA removed all the reported data
from an additional 12 SWAs because it found the data they had reported was
unreasonably high or abnormally low. Additionally, the record layout for the WIASRD
public-use file stated that ETA’s data adjustments only screened out the most extreme
cases and “extreme care should be taken when using this data.” Given that data for 25
percent of the SWAs was removed, such a disclaimer would indicate the data ETA
made available to the public should be considered unreliable.

ETA officials explained that the SWAs may not be doing as much follow up as they
should, but WIA does not require personal follow up to obtain outcomes. Instead, WIA

                                                WIA Adult & Dislocated Worker Training Services
                                            7                      Report No. 03-11-003-03-390
                                             U.S. Department of Labor – Office of Inspector General



requires the SWAs to use Unemployment Insurance (UI) wage records to verify
employment. ETA officials stated that the problem with this method for determining if the
employment was related to the training received was that the UI wage records only
showed industry code, not occupational codes for the job duties being performed.
Another issue identified by ETA officials was that it was very subjective for someone to
decide if a participant used “a substantial portion of the skills taught in the training
received.”

Although WIA does not specifically require personal follow up, WIA, Section
185(d)(1)(c), requires that outcomes of programs and activities for participants be
reported, including the occupations of participants.

ETA did not know what training services it paid for or how much it invested in
those services.

ETA did not collect the cost of training at the participant level.

WIA, Section 185 (d)(1)(B), requires that the programs and activities in which
participants are enrolled be reported as prescribed by the Secretary. Additionally, WIA,
Section 136(d)(2)(C), requires cost of workforce investment activities relative to the
effect of the activities on the performance of participants be reported by SWAs in the
WIA Annual Report. Finally, WIA, Section 185(d)(1)(D), requires that the specified costs
of WIA programs and activities be reported as prescribed by the Secretary.

ETA used WIASRD to collect data elements related to participant training activities. ETA
considered a participant to have received training under the WIA Adult and Dislocated
Worker programs if the participant’s record had a valid date in the “Training Entered
Date” field (data element 335) and the “Type of Training Service” field (data element
340) indicated a valid training service was provided to the participant. Our analysis of
these data elements in the WIASRD file used for the audit found they were unreliable
because different funding sources were used to pay for training services. Therefore,
ETA did not know whether the WIA Adult and Dislocated Worker programs had funded
the training for which it was credited or if another source had funded the training.

In selecting our sample we learned that the training data in WIASRD included training
paid for by sources other than WIA. Our adjustments to the training data resulted in
determining that the number of participants who were recorded as receiving training
services under the Adult and Dislocated Worker programs was overstated by
approximately 19 percent.

ETA instructed the SWAs to include a discussion of “the cost of workforce investment
activities relative to the effect of the activities on the performance of the participants” in
the narrative section of their WIA Annual Reports. To ETA’s credit, since September
2008, the agency has issued several Training and Employment Guidance Letters
(TEGL) to SWAs on the costs of workforce investment activities. The TEGLs explained
how ETA had a long-term interest in improving program efficiency so that both the

                                                   WIA Adult & Dislocated Worker Training Services
                                               8                      Report No. 03-11-003-03-390
                                                  U.S. Department of Labor – Office of Inspector General



taxpayers and customers can be better served. ETA suggested that the SWAs explain
how the mix of core, intensive, and training services provided to participants affected
outcomes. The TEGLs also provided examples of potential cost measures but left the
choice of which measures to use in reporting to the discretion of the SWAs. ETA did not
collect any cost information in WIASRD.

For program year (PY) 2009 — the latest WIA Annual Reports available — two of the
six SWAs in our sample did not report costs of workforce investment activities relative to
the effect on performance in their WIA Annual Reports. The remaining four SWAs
reported using different methodologies to determine the effect of cost on performance.
Even if all the SWAs had reported this cost information using the same measures and
methodologies, ETA would still lack reporting transparency on a national level because
the information would have to be analyzed from 53 separate WIA Annual Reports.

ETA officials stated that WIA did not allow the agency to require the reporting of specific
cost information on training services. We believe that WIA was referring to costs
reported on the standard government-wide Federal Financial Report (FFR). 3 Costs
reported on the FFR are generally supported by the SWAs’ and LWAs’ accounting
systems which may not be designed to capture and report detailed costs. Rather than
requiring SWAs and LWAs to report training costs on the FFR, ETA could add an
additional data element to WIASRD to capture the costs paid for the training services
using the invoice payments to training providers (we were able to readily obtain this
information from all the LWAs included in the audit). Adding this data element to
WIASRD would not require revisions to the SWAs’ and LWAs’ accounting systems, and
having such cost data would allow ETA to share it with consumers, taxpayers, Congress
and others who have an interest in the WIA programs. Furthermore, doing so would
also facilitate ETA’s and the SWAs’ compliance with WIA, Section 185, which requires
that these costs be reported.

Several SWAs and LWAs in our sample showed interest in training costs and
outcomes.

At the state level, three of the six SWAs in our sample were able to provide us
information on how much they spent on training services under the WIA Adult and
Dislocated Worker programs. Two of the three SWAs were required by their state law to
report training expenditures. A fourth SWA planned to start collecting information on
WIA training expenditures in July 2011 because it was constantly receiving requests for
this information.

The SWAs and LWAs in our sample also tracked — or showed an interest in tracking —
whether participants obtained employment related to the training they received. One
SWA and 10 LWAs tracked training-related employment, while an additional 2 SWAs
and 4 LWAs indicated they were interested in tracking this information. For example, at
1 LWA, the Workforce Investment Board actually set a training-related employment rate


    Formerly called the Financial Status Report
3



                                                       WIA Adult & Dislocated Worker Training Services
                                                   9                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General



as an internal performance measure to assess how well the training programs were
doing. Also, 1 SWA that showed an interest in tracking training-related employment had
recently conducted a longitudinal study into the outcomes of training services for
participants. A key objective of the study was to ensure that training funds were spent
prudently and exhibited measurable outcomes.

We believe there is a need for a performance measure and reliable data on the costs
and outcomes of training services so that ETA can put itself in a position to report to
stakeholders and Congress how much WIA funding is used for training services and
what the outcomes of those services are.


Objective 2 — What were the results of the training services provided under the
              WIA Adult and Dislocated Worker programs, and were the training
              services linked to demand occupations?

       An estimated $124 million was spent on training Adult and Dislocated Worker
       exiters who did not obtain training-related employment or there was insufficient
       information to make the determination.

Finding 2 — More that 80 percent of the exiters who received training services
            under the Adult and Dislocated Worker program obtained
            employment but not always related to the training they received.

Our testing of 362 sampled Adult and Dislocated Worker program exiters who received
training services showed that in almost every case (98 percent), they received training
related to a demand occupation. Although ETA did not have a measure or goal for the
rate at which training was completed, we found that 86 percent of the sampled exiters
completed their training. Testing for employment outcomes indicated that 85 percent
obtained employment after training, and of those who obtained employment, 82 percent
were still employed in the second quarter after exiting the programs.

However, our analysis also showed that 37 percent of the sampled exiters either did not
obtain employment, or their employment was unrelated to the training received.
Specifically, almost 13 percent of the sampled exiters did not obtain employment, and
for those who did, almost 24 percent were in jobs that were not related to the training
they received. Additionally, for another 10 percent we could not determine if the job was
related to the training received because of insufficient case file evidence. We projected
to our audit universe of 103,430 exiters that the amount of funds paid for training exiters
who did not find employment or employment was not related to the training, and exiters
for whom we could not determine if the employment was related to their training, totaled
approximately $124 million.

Because of the lack of reliable information on the costs and outcomes of training
services provided under the WIA Adult and Dislocated Worker programs, we tested a
random sample of 362 exiters who were reported as being served by either program

                                                 WIA Adult & Dislocated Worker Training Services
                                            10                      Report No. 03-11-003-03-390
                                                     U.S. Department of Labor – Office of Inspector General



and received training services during the 12-month period of April 1, 2008 through
March 31, 2009 (see Appendix B for detail on the sampling methodology.) The following
are the results of our testing of the 362 sampled exiters. The sample results and
projections are summarized in the report exhibit.

Cost of Training

ETA did not track the cost of training services it provided to participants in the WIA Adult
and Dislocated Worker programs. In order to estimate the training costs, we obtained
the costs of the training services provided to the sampled exiters from case file
documentation or accounting records maintained by the LWAs and projected those
costs to the audit universe.

Based on the cost of the training provided to the 362 sampled exiters (which totaled
$1.1 million) we estimated that training costs for the 103,430 exiters in our universe to
be approximately $307 million. Since the audit period covered exiters from two program
years 4 (PYs 2007 and 2008), we averaged the annual allotments for the 20 SWAs in
our universe to put the amount of funding paid for training services in perspective. The
20 SWAs received 78 percent of the average annual allotment of $2 billion for both
programs. ETA allotted an average of $1.6 billion annually to the 20 SWAs in our
universe and these SWA spent 19 percent of the average allotted funds on training
services.

The extent to which the training was for a demand occupation

Overall, we found SWAs and LWAs had identified the needs regarding current and
projected employment opportunities in the respective states and local areas, and most
of the training was related to these occupations or was exempt from the requirement
that it be related to these occupations.

WIA requires SWAs and LWAs to provide in their WIA plans information describing the
needs of the state and local areas in regard to current and projected employment
opportunities, by occupation. 5 WIA, Section 134(d)(4)(G), requires that training services
be directly linked to occupations that are in demand in the local area, or in another area
to which an adult or dislocated worker receiving such services is willing to relocate,
except that a local board may approve training services for occupations determined by
the local board to be in sectors of the economy that have a high potential for sustained
demand or growth in the local area. Exceptions to this requirement are allowed for
on-the-job and customized training.

Every SWA and LWA in our sample had identified demand occupations. We reviewed
case file documentation for the sampled exiters to determine if the training provided was


4
  WIA provides funding through allotments to the SWAs based on program year which run from July 1 through
June 30.
  WIA, Section 112(b)(4) for SWAs and Section 118(b)(1)(B) for LWAs
5



                                                           WIA Adult & Dislocated Worker Training Services
                                                      11                      Report No. 03-11-003-03-390
                                                           U.S. Department of Labor – Office of Inspector General



related to the demand occupations identified by the SWAs and LWAS, or if the training
was exempt from the demand occupation requirement.

Of the 362 sampled exiters, 98 percent received training in a demand occupation when
required. Forty-eight exiters received on-the-job or customized training; therefore the
training did not have to be in a demand occupation and we omitted these exiters from
our calculation. Our results showed that of the 314 remaining exiters, 309 received
training related to a demand occupation.

Overall, for the population of 103,430 exiters who received training, we estimated 83
percent received training in a demand occupation, 15 percent received training that was
exempt from the demand occupation requirement, and 2 percent did not receive training
in a demand occupation.

The extent to which exiters completed the training

The rate at which exiters complete training is an indicator of how effective the LWAs
assessed the exiters’ capability and aptitude for training. ETA does not have, and WIA
does not require, a measure or goal for the rate at which training is completed

Of the 357 sampled exiters who did not drop out of training for medical reasons 6 , 312,
or 87 percent, completed the training.

Overall, for the population of 103,430 exiters who received training, we estimated 86
percent completed training, 12 percent did not complete the training, and 1 percent
dropped out for medical reasons. In addition, for 1 percent, we were unable to make a
determination because of insufficient documentation.

The extent to which exiters obtained and retained employment

Two of the performance measures that ETA uses for the WIA Adult and Dislocated
Worker programs are the percent of exiters who are employed in the first quarter after
the exit quarter and the percent of exiters who are employed in both the second and
third quarters after the exit quarter. WIA, Section 136(f)(2), requires SWAs to use UI
wage records to document employment outcomes.

We reviewed the sampled exiters’ case files for evidence of employment after training.
Of the 362 sampled exiters, 305 (84 percent) obtained employment. Overall, we
estimated that for population of 103,430 exiters who received training, 85 percent
obtained employment.

We also reviewed the sampled exiters’ case files for evidence of employment in the
second quarter after exit. Of the 362 exiters sampled, 249 (69 percent) retained
employment in the second quarter after exiting. Overall, we estimated that for the
population of 103,430 exiters who received training, 70 percent retained employment.
6
    We identified 4 of the 362 sampled exiters dropped out of training for medical reasons.

                                                                 WIA Adult & Dislocated Worker Training Services
                                                            12                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General




The extent to which exiters obtained employment related to the training received

Obtaining employment related to the training received is an important measure of the
effectiveness and return on investment of WIA funds spent on training services. For
each sampled exiter who obtained employment, we reviewed case file documentation to
determine the occupation the exiter was being trained for and compared it to
documentation that described the job the exiter obtained.

Of the 362 sampled exiters, 305 (84 percent) found employment after completing
training. Of these 305 exiters, 73 (24 percent) did not find employment related to the
training they received. Additionally, LWAs did not maintain sufficient information for us
to make a determination on whether employment was related to the training for an
additional 29 exiters (10 percent).

Overall, we estimated that for the population of 103,430 exiters, 51 percent obtained
training-related employment, 20 percent did not obtain training-related employment, and
21 percent did not obtain employment, dropped out of training for medical reasons, or
received training while employed. For 8 percent, we were unable to determine if
employment was training-related because the LWAs did not maintain sufficient
documentation.

We estimated that the cost of training provided to exiters in the population who did not
obtain training-related employment was $56,416,119; and of those for whom we could
not make a determination the cost was $26,123,373, for a total of $82,539,492. We also
estimated that the cost of the training provided to the exiters in our population who did
not obtain employment totaled $41,541,222.

The results demonstrate the need for information on training services

The above results demonstrate that the lack of performance and cost information
hinders ETA’s ability to assess the effectiveness of training services. Approximately
$124 million was spent on training exiters who were unable to find a job, did not obtain
training-related employment, or for whom there was insufficient documentation to make
any determination. Information on training services is especially important because
recent trends show the annual amount of funds allotted to SWAs for the WIA Adult and
Dislocated Worker programs are decreasing while the number of participants is
increasing. Usable and reliable information on training costs and training-related
employment would assist ETA and the SWAs in determining how to best allocate
decreasing WIA funds to assist individuals in pursuing viable career paths leading to
self-sufficiency, and would improve the accountability and transparency over WIA funds
invested in training participants for demand occupations.




                                                 WIA Adult & Dislocated Worker Training Services
                                            13                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training:

1. Pursue legislative authority in the WIA reauthorization to develop performance
   measures for training outcomes.

2. Require SWAs to report training costs and funding sources at the participant level in
   WIASRD so stakeholders have adequate information to make return-on-investment
   decisions for WIA services.

3. Provide guidance to SWAs and LWAs regarding the best methodology for collecting
   and reporting data for training-related employment.

4. Exercise oversight over SWAs to ensure they develop and/or identify best practices
   to increase the percentage of exiters who find employment related to the training
   they receive.


We appreciate the cooperation and courtesies that ETA personnel extended to the OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                 WIA Adult & Dislocated Worker Training Services
                                            14                      Report No. 03-11-003-03-390
          U.S. Department of Labor – Office of Inspector General




Exhibit




                WIA Adult & Dislocated Worker Training Services
           15                      Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   WIA Adult & Dislocated Worker Training Services
              16                      Report No. 03-11-003-03-390
                                               U.S. Department of Labor – Office of Inspector General



                                                                                            Exhibit
Sample Results and Projections

                                      Number of      95 Percent Confidence Limit Projected to a
                                     Occurrences     Universe of 103,430 Exiters Who Received
                                       from a                    Training Services
                                      Sample of         Point
             Attribute                   362          Estimate     Lower Limit     Upper Limit
  What was the cost of training?
  Adult                                      $528,736 $189,957,397 $126,036,270      $253,878,524
  Dislocated Worker                          $583,019 $117,190,707    $51,810,072    $182,571,342
  Total                                    $1,111,755 $307,148,197 $302,479,304      $311,817,091
  Did the exiter receive training related to a demand occupation?
  Yes                                             309          83.03%      78.9%           87.17%
  No                                                5           1.59%      0.18%            3.00%
  Exiters who received training that
  was exempt from the demand
  occupation requirement.                          48          15.38%     11.38%           19.37%
  Did the exiter complete training?
  Yes                                             312          86.02%     82.27%           89.76%
  No                                               44          12.36%      8.82%           15.91%
  Cannot Determine (CND)                            2            0.7%       0.0%            1.66%
  Not Applicable (1)                                4           0.92%       0.0%            1.86%
  Did the exiter obtain employment?
  Yes                                             305          85.33%     81.65%          89.02%
  No                                               49          12.67%       9.2%          16.14%
  CND                                               4           1.08%       0.0%           2.18%
  Not Applicable (1)                                4           0.92%       0.0%           1.86%
  Cost of Training for Nos                   $156,910     $41,541,222 $40,375,180     $42,707,263
  Did the exiter retain employment?
  Yes                                             249          70.21%     65.37%           75.05%
  No                                               40          10.96%      7.61%           14.31%
  CND                                              20           5.24%      2.91%            7.57%
  Exiters who did not obtain
  employment or medically unable
  to complete training.                            53          13.59%     10.02%           17.15%
  Did the exiter obtain employment related to the training?
  Yes                                             185          51.16%     45.79%           56.53%
  No                                               73          19.57%     15.35%           23.78%
  CND                                              29           7.88%      5.00%           10.76%
  Exiters who did not obtain
  employment (49), medically
  unable to complete training (4), or
  were already employed and SWA
  received an ETA waiver to use
  funds to train them (22).                        75          21.22%     16.81%          25.63%
  Cost of Training for Nos                   $212,434     $56,416,119 $55,103,456     $57,728,782
  Cost of Training for CND                   $102,977     $26,123,373 $24,932,169     $27,314,576
(1) Exiters who did not complete training for medical reasons.


                                                     WIA Adult & Dislocated Worker Training Services
                                                17                      Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   WIA Adult & Dislocated Worker Training Services
              18                      Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                   WIA Adult & Dislocated Worker Training Services
              19                      Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   WIA Adult & Dislocated Worker Training Services
              20                      Report No. 03-11-003-03-390
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background

WIA was designed to provide employment and training services to assist eligible
individuals in finding and qualifying for meaningful employment and to help employers
find the skilled workers they need to compete and succeed in business. WIA goals are
to:
       Increase employment, as measured by entry into unsubsidized employment;

       Increase retention in unsubsidized employment six months after entry into
       employment;

       Increased earnings received in unsubsidized employment for dislocated workers;
       and

       Enhance customer satisfaction for participants and employers.

DOL’s ETA is responsible for administering WIA programs at the federal level. WIA
services are primarily provided through state and local workforce development systems
through grants awarded by ETA. Under WIA the Governor designates local workforce
investment areas in which workforce activities are to be administered locally. Local
workforce investment boards are responsible for planning and overseeing the local
program. The local board is appointed by the local elected official and must have a
majority of business representatives, and include representatives of education
providers, labor organizations, community-based organizations, economic development
agencies, and other partners. WIA requires each local area to establish a one-stop
delivery system through which employment and training services funded under Title 1
and other Federal programs are provided. The programs providing services through the
one-stop system are referred to as one-stop partners. Designated one-stop partners are
programs that must provide core services through the one-stop, and include programs
authorized under Title I, the Wagner-Peyser Act. the Adult Education and Literacy title
of WIA, the Vocational Rehabilitation Act, Title V of the Older Americans Act,
postsecondary vocational education under the Perkins Act, Trade Adjustment
Assistance, veterans employment services, unemployment compensation laws,
Community Service Block Grants, and employment and training activities carried out by
the Department of Housing and Urban Development.

The Adult and Dislocated Worker programs are authorized under Title IB of WIA. WIA
provides formula-based funding to SWAs to design and operate these training
programs. The Adult program provides employment and training activities for adults,
including low-income individuals and public-assistance recipients. The Dislocated
Worker program provides reemployment services and retraining assistance to
individuals permanently dislocated from their employment.

WIA provides the following three tiers, or levels of service:



                                                  WIA Adult & Dislocated Worker Training Services
                                             21                      Report No. 03-11-003-03-390
                                            U.S. Department of Labor – Office of Inspector General



       Core services – include career counseling, job search and placement assistance,
       labor market information identifying job vacancies, skills necessary for
       occupations in demand, and relevant employment trends.

       Intensive services - include comprehensive assessments, development of
       individual employment plans, counseling, case management, and short-term
       prevocational services.

       Training Services – include occupational skills training, on-the-job training,
       entrepreneurial training, skill upgrading, job readiness training, and adult
       education and literacy activities in conjunction with other training.

Core services funded by the Adult program stream are available on a universal basis
with no eligibility requirement. Funds for the Dislocated Workers program are to be used
exclusively for services to such workers. However, the amount of funding spent on each
of the service tiers is not available because fund allocation is left to the discretion of the
SWAs, and ETA does not collect this information. Intensive services can be provided to
unemployed workers who are unable to obtain employment through the core services
and to employed workers who are determined to need additional assistance to obtain or
retain employment.

Training services may be provided to individuals who met the eligibility requirements for
intensive services and:

       have been unable to obtain or retain employment through such services;

       have the skills and qualifications to successfully participate in a selected
       program;

       select programs that are directly linked to employment opportunities in the local
       area; and

       are unable to obtain other grant assistance, including Pell grants, or need
       assistance above the levels provided by such other grants.

If Adult program funds are limited in a local area, priority for intensive and training
services must be given to recipients of public assistance and other low-income
individuals. WIA requires (with three exceptions) that training be provided through the
use of Individual Training Accounts (ITA), through which a participant chooses among
eligible providers. Specifically, the one-stop system is to provide participants with the list
of eligible providers and related performance information. The participant then is to
choose the program after consultation with a case manager, with payment arranged
through the ITAs.

Training may be provided through a contract for services in lieu of an ITA for: on-the-job
training and customized training; where there are an insufficient number of providers to

                                                   WIA Adult & Dislocated Worker Training Services
                                              22                      Report No. 03-11-003-03-390
                                             U.S. Department of Labor – Office of Inspector General



meet the competitive purposes of ITAs; and for programs offered by community-based
organizations or other private agencies that serve special participant populations that
face multiple barriers to employment.

Funds allocated to local areas under the adult and dislocated worker funding streams
are to be used at the local level to provide employment and training services through
the one-stop system. The following table provides appropriated funding for the Adult
and Dislocated Worker programs for FYs 2008 through 2010 and requested for 2011.

Table: Funding for Adult and Dislocated Worker Programs for FYs 2008-2011
Program           FY 2008             FY 2009           FY 2010        Recovery Act FY 2011
Adult         $ 849,101,000        $ 861,540,000     $ 861,540,000 $ 500,000,000 $ 770,992,000

Dislocated   $ 1,446,189,000   $ 1,341,891,000        $ 1,413,000,000   $ 1,450,000,000 $ 1,287,544,000
Worker
Total        $ 2,295,290,000   $ 2,203,431,000        $ 2,274,540,000   $ 1,950,000,000 $ 2,058,466,000

Congress intended that Recovery Act funds for employment and training be spent
concurrently with regular formula funds to increase the number of workers who could be
served and not be not be used to replace state or local funding currently dedicated to
workforce development and summer jobs. ETA expected states and local areas to fully
utilize Recovery Act funds to substantially increase the number of customers served,
provide more in-depth services, as needed, and to substantially increase the number
and proportion of those customers who receive training, especially training in emerging
and high demand occupations and industries.

ETA adopted the common measures methodology for calculating the entered
employment, employment retention, and earnings measurement in the WIA
performance accountability system for WIA Adult and Dislocated Worker programs. The
following are the Common Measure for the WIA Adult and Dislocated Worker programs.

    •	 Entered Employment – percentage of exiters who are employed in the first
       quarter after the exit quarter.

    •	 Employment Retention – percentage of exiters who obtained employment and
       are employed in both the second and third quarters after the exit quarter.

    •	 Average Earning – for the exiters employed in the first, second, and third
       quarters, their total earnings for the second and third quarters divided by the
       number of participant who exit during the quarter. Number of adult participants
       who exit during the quarter.

SWAs are required to submit performance data no later than October 1 following the
end of each program year (July-June) in their Annual Report (9091). The performance
data reported in the WIA Annual Report comprises information provided by each SWA
from their individual WIASRD files. ETA developed WIASRD to establish a standardized


                                                       WIA Adult & Dislocated Worker Training Services
                                                 23                       Report No. 03-11-003-03-390
                                          U.S. Department of Labor – Office of Inspector General



set of data elements, definitions, and specifications that can be used to describe the
characteristics, activities, and outcomes of individuals served by WIA Title IB programs,
including services financially assisted by National Emergency Grants. The purpose of
WIASRD is to facilitate the collection and reporting of valid, consistent, and complete
information on an individual in order to support the overall management, evaluation, and
continuous improvement of the programs at the local, state, and federal levels. The
program performance results from WIASRD can be shared with consumers, taxpayers,
Congress and others with an interest in the WIA programs. The program outcomes are
reported in WIASRD about 18 to 24 months after the person exits the programs,
depending on the timeframes of the exit as well as the reporting timelines.




                                                WIA Adult & Dislocated Worker Training Services
                                           24                      Report No. 03-11-003-03-390
                                                    U.S. Department of Labor – Office of Inspector General



                                                                                           Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

        1. 	    Was ETA’s performance accountability system able to assess the
                effectiveness of training services provided under the WIA Adult and
                Dislocated Worker programs?

        2. 	    What were the results of the training services provided under these
                programs, and were the training services linked to demand occupations?

Scope

The audit covered ETA policies and the SWAs’ in our sample practices and procedures
over identifying demand occupations and training services provided under the Adult and
Dislocated Worker programs. The audit covered processes in place at the time of our
fieldwork from January through July 2011. We used a statistical random sample of
exiters 7 as reported in WIASRD as of March 31, 2010, the most recent data available at
the time of our audit. We randomly selected the sample from a universe of 103,430
Adult and Dislocated exiters who received training services and exited WIA between
April 1, 2008 and March 31, 2009. This was the latest period on hand in order to obtain
employment outcomes which are not available until 12-15 months after the exit. Since
this was aged data, we selected a more recent sample covering those who exited
between October 1, 2009 and March 31, 2010, to determine if there were changes in
the extent to which LWAs provided training related to demand occupations and the
extent to which exiters completed training. The results between the two time periods
were comparable. Therefore, for clarity, we decided to only report the results of the
participants who exited WIA between April 1, 2008 and March 31, 2009.

The universe of SWAs consisted of 20 SWAs that together were responsible for
providing training services to 79 percent of the exiters within the audit time frames. We
reduced the SWA universe from 53 to 20 in order to make a more manageable selection
in the terms of the number of SWAs and LWAs we had to visit. We randomly select the
following six SWAs — California, Florida, Louisiana, New Jersey, North Carolina, and
Utah. From these SWAs we randomly selected 23 LWAs and then exiters. We selected
a sample of 362 exiters.

We performed audit work at ETA’s National Office in Washington, DC and at the
following statistically selected SWAs and LWAs:




7
    Exiters are participants who enrolled and received services and the exited from WIA programs.

                                                          WIA Adult & Dislocated Worker Training Services
                                                     25                      Report No. 03-11-003-03-390
                                         U.S. Department of Labor – Office of Inspector General




List of SWAs and LWAs Selected for Audit
California Employment Development        New Jersey Department of Labor and
Department, Sacramento                   Workforce Development; Trenton
County of Los Angeles, Community and     Bergen County One Stop Career Center;
Senior Services; Los Angeles             Hackensack
City of Los Angeles Community            Passaic County Workforce Investment
Development Department; Los Angeles      Board; Clifton
Foothill; Pasadena                       Camden County Workforce Investment
                                         Board; Cherry Hill
San Bernardino Department of Workforce   Cumberland-Salem Workforce
Development, San Bernardino              Investment Board; Bridgeton
Santa Anna Community Development
Agency, Santa Anna
Florida Agency for Workforce             North Carolina Division of Workforce
Innovation, Tallahassee                  Development, Raleigh
Chipola Regional Workforce Development   High Country Workforce Area; Boone
Board, Incorporated, Marianna
Workforce Central Florida; Orlando       Regional Partnership Workforce Area;
                                         Asheboro
Worknet Pinellas Incorporated; St.       Region C Workforce Area; Rutherfordton
Petersburg
First Coast Workforce Development        Mountain Area Workforce Area;
Incorporated; Jacksonville               Asheville
Workforce One; Fort Lauderdale
Louisiana Workforce Commission,          Utah Department of Workforce
Baton Rouge                              Services, Salt Lake City
First Planning District; Covington       Utah does not have LWAs
Second Planning District; Hammond
Fifth Planning District; DeRidder
Jefferson Parish; Gretna

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To determine the extent state and local workforce investment boards identified demand
occupations we gained an understanding of the applicable WIA and ETA requirements
and guidance. We also reviewed SWA and LWA WIA planning documents and
interviewed appropriate officials at the state and local workforce investment boards

                                               WIA Adult & Dislocated Worker Training Services
                                          26                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General



about the processes they used and reviewed documentation they provided.

To determine what extent did WIA Adult and Dislocated Workers program exiters
received training in demand occupations, completed their training, found and retained
employment, and found employment related to the training received, we reviewed case
file documentation for a statistical random sample of 362 exiters from 6 SWAs who
received training services.

Reliability Assessment

We assessed the reliability of ETA’s WIASRD data by (1) performing tests for
completeness, accuracy, and consistency of the data elements used in the audit, and
(2) reviewing existing information about the data. We did find some problems with
several of the data elements and they are described in the report findings. Otherwise,
we determined the data was sufficiently reliable for the purposes of this audit.

Sampling

We determined a universe of 103,430 exiters who received training services under the
Adult and Dislocated Worker programs between April 1, 2008, and March 31, 2009. The
audit used a three-stage stratified cluster statistical sampling design to randomly select
the SWAs, LWAs, and exiters. We stratified the universe of SWAs into the following
three strata based on the total number of Adult and Dislocated Worker program exiters
for each of the time periods within the audit scope.

 Stratification of SWAs Based on the Universe of Exiters
            Percent of the Total Population of Adult and
            Dislocated Worker Participants Who Exited WIA                           Percent of
            Either April 2008 through March 2009 or October          Number        Population
 Stratum 2009 through March 2010                                     of SWAs       for Stratum
     1      More than three percent                                     10              56
     2      Two to three percent                                        10              23
     3      Less than 2 percent                                         33              21

We narrowed the universe to the 20 SWAs from stratums 1 and 2 because they were
responsible for providing training services to 79 percent of the participants in who
received training services under the Adult and Dislocated Worker programs and exited
WIA within the audit scope time frames. We randomly selected 6 SWAs, three from
each of the two stratums. The number of LWAs for the 20 SWAs in our population
totaled 397. Using a 90 percent confidence level and a sampling precision of plus or
minus 10 percent, we determined the sample size of the LWAs to be 23. The 23 LWAs
were randomly selected from the 6 SWAs sampled. At the LWAs we randomly selected
a total of 362 exiters. In determining the sample size for the exiters, we used a 95
percent confidence level and a sampling precision of plus or minus 7 percent.



                                                 WIA Adult & Dislocated Worker Training Services
                                            27                      Report No. 03-11-003-03-390
                                          U.S. Department of Labor – Office of Inspector General



In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing
ETA’s policies and guidance related to identifying demand occupations and providing
and reporting training services under the Adult and Dislocated Worker programs. We
confirmed our understanding of these controls and procedures through interviews and
case file review and analysis. Our consideration of these internal controls would not
necessarily disclose all matters that might be significant deficiencies. Because of
inherent limitations in internal controls, misstatements or noncompliance may
nevertheless occur and not be detected.

Criteria

   •	 WIA of 1998

   •	 Code of Federal Regulations Title 20 Part 652 et. al, August 11, 2000

   •	 TEGL 17-05 – Common Measures Policy of ETA’s Performance Accountability
      System and Related Performance Issues

   •	 TEGL 14-00 – WIA Performance Reporting System

   •	 TEGL 14-00, Change 1 – Guidance on WIA Management Information and
      Reporting System

   •	 TEGL 14-00, Changes 2 and 3 – WIA Annual Report Narrative

   •	 WIA Annual Report: General Reporting Instructions and ETA Form 9091




                                                WIA Adult & Dislocated Worker Training Services
                                           28                      Report No. 03-11-003-03-390
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix C
Acronyms and Abbreviations

CND        Cannot Determine

DOL        U.S. Department of Labor

ETA        Employment and Training Administration

FFR        Federal Financial Report

FY         Fiscal Year

ITA        Individual Training Account

OIG        Office of Inspector General

PAR        Performance and Accountability Report

PY         Program Year

SWA        State Workforce Agency

TEGL       Training and Employment Guidance Letter

UI         Unemployment Insurance

WIA        Workforce Investment Act

WIASRD     Workforce Investment Act Standard Record Data




                                               WIA Adult & Dislocated Worker Training Services
                                          29                      Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   WIA Adult & Dislocated Worker Training Services
              30                      Report No. 03-11-003-03-390
                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                           Appendix D
ETA Response to Draft Report



     U.S. Department of Labor                   Assistant Secretary for
                                                Employment and Training
                                                Washington, D.C. 20210




                 SEP 30 2011


             MEMORANDUM FOR:               ELLIOTP. LEWIS
                                           Assistant Inspector General
                                           Office of Audit

             FROM:                         JANE OATES          I~           ~
                                           Assistant Secretary {J

             SUBJECT:                      Response to the Office of the Inspector General's Audit,
                                           Additional Information Needed to Measure the
                                           Effectiveness and Return on Investment of Training
                                           Services Funded Under the Adult and Dislocated Worker
                                           Programs, Audit Report 03-11-003-390

             The Employment and Training Administration (ETA) appreciates the opportunity to
             provide a response to the Office of the Inspector General's (OIG) audit report on
             Workforce Investment Act's performance accountability of job training services. We
             acknowledge the time and effort that the OIG spent examining data ofWIA participants
             who received training services and for helping to confirm that the majority of participants
             are receiving placement in demand occupations.

             As we begin our response, we would like to correct for the record some of the context for
             the report before addressing the specific OIG findings and recommendations.

             The premise of the overarching finding in this report is based on the OIG'sjudgment that
             ETA should collect additional data and establish additional measurements around training
             outcomes. To see this conclusion in its proper context, it is important to understand that
             state WIA programs already collect and report hundreds of data elements to ETA,
             including data on training services. We respectfully disagree with the assessment made
             in the report that "there is limited information available at the national level about the
             results and cost of the training services provided by the Adult and Dislocated Worker
             programs." Current data collections already allow us to calculate outcomes for each
             participant who receives training.

             ETA can answer any number of more detailed programmatic and management questions
             for these participants, such as: (a) What are the characteristics of individuals receiving
             training (race/ethnicity, age, employment status, income status, etc.)? (b) How many
             attained a credential upon completion of a training service? (c) What was the success of
             training participants in finding a job, retaining a job, and what were their earnings? (d)
             What type of training was provided (e.g., On-the-Job Training, occupational skills
             training, customized training, basic skills training, etc.)? To suggest that this is a




                                                              WIA Adult & Dislocated Worker Training Services
                                                        31                       Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General




                                              2


"limited" dataset is neither a fair nor accurate assessment. The audit report appears to
define "limited" through a narrow lens based on two facts: 1) state workforce agencies
(SWAs) uneven reporting of one data element (training-related employment); and, 2) the
lack of cost data.

In addition, in our opinion, the overall tone of the report is very misleading. The report
tends to overstate deficiencies and understate positive findings. For example, the report
cites that "almost 13 percent of the sampled exiters did not obtain employment .... "
Although not stated as such, the conclusion is that most (87 percent) of the individuals
who received training services actually became employed. This is significant --
especially considering the high unemployment and slow job growth during the period of
observation. Another significant finding is that 98 percent of the training received was in
demand occupations. One more example is where the report states that "ETA is not in a
position to report to stakeholders the outcomes and cost of training services ... " As stated
above, the current reporting system allows us to report the outcomes of training services
and outcomes by type of training, occupation of training, demographics, and a variety of
other useful cross-tabulations. This information is available for both the national level as
well as by state and/or local area. As a final note, while ETA believes training is
certainly a valuable service, training in and of itself is not an outcome; rather training is
an output. WIA's stated purpose is to provide activities that increase employment,
retention, and earnings. In accordance with that purpose, and with the provisions of
section 136 of the law, ETA implemented the performance accountability system. In
other words, the outcome measures for which states are held accountable are the required
outcomes in WIA' s purpose.

Finding I-ETA' s performance accountability system was not able to assess the
effectiveness of training services provided under the WIA Adult and Dislocated Worker
programs.

ETA Response: States report annually on the outcomes for individuals who receive core
and intensive services, as well as on outcomes for those who receive training services,
and ETA makes such information publicly available. This information is reported in the
states' annual performance progress report, required by WIA section 136(d).

Finding 2-More than eighty percent of the exiters who received training services under
the Adult and Dislocated Worker programs obtained employment but not always related
to the training they received.

ETA Response: As stated above, that 87 percent of those who received training services
became employed is a noteworthy accomplishment, and ETA believes this performance
metric should be highlighted.

Further in the finding, the report states that "Approximately $124 million was spent on
training exiters who were unable to find a job, did not obtain training-related
employment, or for whom there was insufficient documentation to make a determination
on if employment was related to training." In your letter you state more than $2 billion is
appropriated for WIA adult and dislocated workers. While our goal is to assist all




                                                   WIA Adult & Dislocated Worker Training Services
                                             32                       Report No. 03-11-003-03-390
                                          U.S. Department of Labor – Office of Inspector General




                                            3

jobseekers with finding employment, the fact that only six percent of program funds was
used to train exiters who were unable to find ajob speaks to the efficacy of the programs,
and should be highlighted.

Recommendation 1: Pursue legislative authority in the WIA reauthorization to develop
performance measures for training outcomes.

ETA Response: Although we understand that it is nice to have more data, especially
data to answer a specific question in mind, we respectfully disagree with this
recommendation for the following reasons. While we believe it is valuable to collect
outcome data on training participants (as explained in the opening to the memo),
continually adding more units of "measurement" to the existing "common performance
measures" (Le., entered employment rate; retention rate; and earnings) may exert a
diluting effect on accountability. Regardless of service or intervention (e.g., guided job
search, resume writing, skills assessment, training), ETA measures the system on its
ability to improve outcomes for all customers, not just the smaller sample of those who
have the opportunity to receive training services. Over the past two years, ETA, in
concert with the Office of Management and Budget (OMB) and the Domestic Policy
Council (DPC), has provided in-depth technical assistance to a Senate subcommittee
working on WIA Reauthorization. One of the guiding principles of these reauthorization
efforts has been to streamline performance measures and allow better synchronization
across the WIA Titles which builds on the work of the "common measures initiative." As
Congress moves forward to reauthorize WIA, it and the Administration may consider
additional policy positions such as that contained in this recommendation; however, ETA
can not predict whether that is likely, nor can it commit to pursue a law change within
the context of this response.

For some time, ETA has been at the forefront in the implementation of the "common
performance measures" among Federal government programs that help individuals
receive education, job training, and employment services. The use of common measures
enables ETA to describe in a similar manner the core purposes and results of the public
workforce investment system - how many individuals got ajob, how many stayed
employed, and what were their earnings. By 2006, ETA's employment and training
programs had fully implemented common measures.

Multiple sets of performance measures have burdened state and local grantees, as they
have been required to report performance outcomes based on varying definitions and
methodologies. By minimizing the different reporting and performance requirements, the
use of common performance measures can facilitate service delivery integration, reduce
barriers to cooperation across programs, and enhance our ability to assess the
effectiveness and impact of the workforce investment system.

ETA recognizes that the information obtained through these common measures provides
a starting point for understanding the performance of numerous workforce programs
within a single context. ETA's policy on common measures acknowledges that good
management and oversight of programs will necessitate the capture and analysis of
additional information relevant to each program, such as outcomes of training services.




                                                 WIA Adult & Dislocated Worker Training Services
                                           33                       Report No. 03-11-003-03-390
                                          U.S. Department of Labor – Office of Inspector General




                                             4

This is why additional information about participant characteristics, services, and
outcomes are collected by states and reported to ETA to supplement the "story" told by
the common measures.

Recommendation 2: Require SWAs to report training costs and funding sources at the
participant level in WIASRD so stakeholders have adequate information to make return-
on-investment decisions for WIA services.

ETA Response: We respectfully disagree with this recommendation for the following
reason. Our understanding of WIA Section 185 prohibits ETA from collecting the level
of detailed cost data that has been suggested in the report. The law states that "the
Secretary shall require only that the costs be categorized as administrative or
programmatic costs." It is the agency's opinion that requiring recipients to record
additional cost categories, such as training, is prohibited by WIA sec. 185(g).

Aside from legal considerations there are practical considerations. The report asserts that
the ETA investments necessary to collect cost data would be minimal. However, the
report does not acknowledge the costs necessary to modify management information
systems at the local, state and federal levels, the costs for training staff, and the
"opportunity costs" of spending more staff time on administrative requirements in place
of serving the historically high customer volume now seen in One-Stop Career Centers
throughout the country.

Recommendation 3: Provide guidance to SWAs and LWAs regarding the best
methodology for collecting and reporting data for training-related employment.

ETA Response: ETA agrees with the OIG report that the agency should continue to
pursue methods for collecting and reporting data for training-related employment. The
one caveat is that almost any "best practice" to improve reporting of where participants
find employment will require One-Stop staff to engage in time-consuming follow-up on
participants who have exited services rather than on the high numbers of individuals
waiting for training and training- and employment-related services. In recent years, ETA
has worked to reduce the time that One-Stop staff needs to conduct time-consuming
follow-up of exiters by requiring the use of administrative records (Le., unemployment
insurance wage records) to verify participant outcomes after they leave our programs.
This "gold standard" data source allows states to verify employment status of exiters and
has been instrumental in ensuring consistency and accuracy of the data across the states.
While the administrative records can provide details on whether or not a person is placed
in a job, these records do not provide information on whether a participant found
employment related to their WIA training. Interestingly, in ETA's analysis of the audit
report data, we found that a very high number (76 percent) of the participants sampled
did find work in employment related to their WIA training.

As part of our continuing guidance to the system, ETA plans to publish a Training and
Employment Guidance Letter (TEGL) which provides information on improving data
collection for the "training-related employment" data element. ETA staff also will




                                                 WIA Adult & Dislocated Worker Training Services
                                           34                       Report No. 03-11-003-03-390
                                         U.S. Department of Labor – Office of Inspector General




                                            5

continually examine data trends to detennine how quickly improvements are made within
the system.

Recommendation 4: Exercise oversight over SWAs to ensure they develop and/or
identify best practices to increase the percentage of exiters who find employment related
to the training they receive.

ETA Response: ETA agrees with the OIG report recommendation that SWAs develop
and/or identify best practices to increase the percentage of exiters who find training-
related employment. ETA will begin by canvassing the best perfonning states for
insights into the most practical ways of improving reporting on this data element. This
infonnation will be encompassed in the TEGL noted in response to Recommendation 3.
ETA will use its Regional Offices to compile infonnation on how states deemed as
"under reporting" on this element are tightening their data collection protocols in this
area.

Thank you again for the opportunity to comment. If you have any questions, please
contact Christine Ollis at (202) 693-3937.




                                                 WIA Adult & Dislocated Worker Training Services
                                           35                       Report No. 03-11-003-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   WIA Adult & Dislocated Worker Training Services
              36                      Report No. 03-11-003-03-390
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix E
Acknowledgements

Key contributors to this report were Michael Hill, Audit Director, Anthony Grice, Audit
Manager, Jen Varvel, Ted Lawson, Steve Sovich, Gloria Collazo-Scotland, Susan
Rosenblum, Dave Halstead, Goleda Sutton-Watson, Janet Cucunato, and Ajit Buttar.




                                                 WIA Adult & Dislocated Worker Training Services
                                            37                      Report No. 03-11-003-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
